                                 INSPECTION




 FOLLOW-UP ON INTERNAL CONTROLS
 AT THE MORRIS K. UDALL AND
 STEWART L. UDALL FOUNDATION




Report No.: C-FL-UDL-0041-2014   September 2014
               OFFICE OF
               INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                               SEP 2 4 2014

Eric D. Eberhard
Chair, Board of Trustees
Morris K. Udall and Stewart L. Udall Foundation
130 S. Scott Avenue
Tucson, AZ 85701

Subject:        Inspection Report- Follow-Up on Internal Controls at the Morris K. Udall and
                Stewart L. Udall Foundation
                Report No. C-FL-UDL-0041-2014

Dear Mr. Eberhard:

        We performed this follow-up review to determine whether the Morris K. Udall and
Stewart L. Udall Foundation's (Foundation) internal controls were consistent with accepted
internal control standards and applicable laws and regulations in the areas of (1) personnel
actions; (2) contracting actions; and (3) internal control monitoring and assessment processes
under the Federal Managers' Financial Integrity Act (FMFIA). Although the Foundation is an
independent agency, the Consolidated Appropriations Act, 2014 (Pub. L. No. 113-76, 128 Stat.
5, 217) gave us funds to audit and investigate the Foundation.

        We found that internal controls were implemented in each area reviewed and appeared
consistent with accepted standards. Our review was limited to the design of the internal controls
at the Foundation and did not include a determination as to whether the internal controls were
operating effectively.

     During the course of our review, we issued a Notice of Potential Findings and
Recommendations. The Foundation's response to that Notice is contained in Attachment 1.

Background

       The Foundation is an independent agency within the executive branch of the U.S.
Government, which is overseen by a 13-member Board ofTrustees. The President appoints nine
members of the Board, with the advice and consent of the U.S. Senate; the other four members
serve by virtue of their positions within the Government. The Foundation was originally founded
in 1992 to honor Morris K. Udall's 30 years of service in the U.S. House of Representatives. In
2009, Congress enacted legislation to honor Stewart L. Udall for his service as a member of
Congress, Secretary ofthe Interior, author, and environmental lawyer, adding his name to the
Foundation.

       The Foundation has two overarching strategic goals, with associated objectives, that
contribute to its efforts to meet its mission. Specifically, these are to (1) provide educational



                                Office of Inspector General I Washington, DC
opportunities to promote careers related to the environment and natural resources, Native
American health care, and Native American tribal policy and (2) resolve environmental conflicts
and improve environmental decision making through mediation, training, and related activities.

        The Foundation’s activities are supported by two distinct funds in the U.S. Treasury.
Specifically, educational activities are supported primarily by interest generated on a trust fund
established by Congress; the Foundation also accepts private donations for educational activities.
The activities of the U.S. Institute for Environmental Conflict Resolution are supported by
annual appropriations and fees charged for services.

        In 2012, the Foundation’s Board of Trustees became aware of some questionable actions
by its employees that required an indepth review, but the Foundation does not have an internal
audit function. Therefore, at the suggestion of the Deputy Secretary of the Interior, a Foundation
trustee, the Board’s Chair and Vice Chair requested we perform a review under an Economy Act
Agreement.

        We issued the results of our review to the Foundation Board on December 13, 2012, in
the report titled “Audit of the Stewardship of the Morris K. Udall and Steward L. Udall
Foundation” (Report No. ZZ-IN-OSS-0011-2012). Overall, we found that the Foundation had
not complied with FMFIA, which requires Federal agencies to evaluate the adequacy of their
internal controls. In addition, the Foundation did not have key internal controls over several
important areas examined during our review, including outside employment of Foundation staff,
termination of staffs’ employment with the Foundation, and the Foundation’s contracting
practices. We detected multiple issues resulting from this absence of controls; however, we did
not complete the audit because of the potential violations identified. We chose to terminate our
audit so that we would not inadvertently impede any future criminal or administrative
investigation.

        The U.S. Government Accountability Office (GAO) performed a follow-up on our
review and issued its results on December 6, 2013, in a report titled “Corrective Actions Under
Way to Address Control Deficiencies at the Morris K. Udall and Stewart L. Udall Foundation”
(Report No. GAO-14-95). GAO found that the Foundation had developed a corrective action
plan to address our findings and that the corrective action plan included steps to address
deficiencies in the Foundation’s (1) internal control monitoring and assessment processes, (2)
internal control related to personnel issues, and (3) internal control related to contracting. For
those actions that were sufficiently documented at the time of its review, GAO found that the
design was consistent with accepted internal control standards and applicable laws and
regulations. A number of the Foundation’s planned actions to improve its internal controls were
not finalized at the time of GAO’s review; therefore, it was too soon for GAO to assess the
design of the actions and whether they were consistent with accepted internal control standards
and applicable laws, regulations, and guidance.

       Since it was too soon for GAO to assess the Foundation’s actions at the time of its
review, we performed this follow-up review in 2014.




                                                 2
Previously Reported Findings

       The Foundation had completed the documentation and implementation of its internal
controls in the areas of concern identified in our initial review. We assessed the design of the
controls and found it consistent with accepted standards and applicable regulations in all areas
reviewed.

Personnel Actions

        The Foundation’s internal policies related to personnel actions appeared adequate.
Specifically, the Foundation issued eight updated policies on outside employment, operating
procedures, pay setting flexibilities, personnel matters, dress code guidance, hours of duty, leave,
and telework. Notably, the policy related to outside employment activities specifically addressed
concerns raised in our 2012 report.

        In addition, the operating procedures implemented by the Board of Trustees included
reporting guidelines and more frequent meetings with senior management to, among other
things, ensure proper and consistent implementation of employee performance and discipline
standards, another concern raised in our 2012 report. Therefore, we determined that the design of
this control is consistent with accepted internal control standards and applicable guidance for
Federal executive agencies.

        Further, the new policies had been signed and distributed to Foundation staff. The staff
was then formally trained on the new policies, and the new policy requirement was reiterated in
seven separate staff meetings. Therefore, we determined that the Foundation had implemented
the internal controls.

Contracting Actions

        The Foundation’s internal policies related to contracting actions were consistent with
accepted standards. As indicated by GAO, the Foundation entered into an interagency agreement
with the Interior Business Center (IBC) for environmental conflict resolution contract services,
including mediation, facilitation, convening, and assessment services. The Foundation has since
expanded its interagency agreement with IBC to include administrative services contracts that
exceed the micro-purchase threshold. The agreement was an appropriate strategy to address our
prior concern that the Foundation did not follow good contracting practices.

        During our initial review, we reported one case in which a Foundation employee violated
the Standards of Conduct for Employees of the Executive Branch and may have violated
criminal statute 18 U.S.C. § 208(a) by participating substantially on a contract that was awarded
to his wife’s company. In addition, the Foundation potentially violated the Anti-Deficiency Act
by billing agencies in violation of the bona fide need rule, which states that appropriations may
be obligated only to meet a legitimate need during the fiscal year for which they were made, and
by paying contractors more than the amounts obligated to the contract.




                                                 3
Monitoring and Assessment Processes

        The Foundation’s monitoring and assessment processes appeared to meet FMFIA
requirements. Specifically, an internal control review conducted in 2013 by an independent
contractor examined 34 control processes and found that 25 were adequate, 7 had operational
deficiencies, and 2 had design deficiencies.

        The seven operational deficiencies were contracting, charge card purchasing, records
administration, data integrity, overtime and compensatory time policy, safety procedures, and
food and refreshment policy for meetings. The two design deficiencies were delegation of
authority and property disposition. A follow-up review conducted by the independent contractor,
and issued in February 2014, found that all seven operational deficiencies and the property
disposition design deficiency had been corrected. The delegation of authority design deficiency
had not been corrected but compensating controls were put in place that adequately compensated
for any weakness caused by the control deficiency. Therefore, based on the internal control
reviews conducted, the 34 control processes were adequate as of February 2014.

       In addition, the Foundation had a plan in place to conduct ongoing assessments moving
forward. Therefore, we determined that the design of this control is consistent with accepted
standards.

Conclusion

         Internal controls were implemented in each area reviewed, in a manner that appeared
consistent with accepted standards and applicable regulations. However, as pointed out by GAO
in its report, the extent to which the new internal controls help the Foundation successfully
comply with applicable laws and regulations will require the continued involvement and rigorous
oversight of the Foundation’s Board.

Scope and Methodology

       We conducted our follow-up review in June and July 2014 in accordance with the Quality
Standards for Inspections and Evaluations as put forth by the Council of the Inspectors General
on Integrity and Efficiency. We believe that the work performed provides a reasonable basis for
our conclusions.

        Our review was limited to the design of the internal controls at the Foundation and did
not include determining whether the internal controls were operating effectively. This is because
internal controls, once implemented, must operate in the environment for a period of time before
they can be tested to determine whether they are operating effectively.

        To address our objective, we (1) obtained and reviewed documentation related to the
Foundation’s actions to improve internal controls and its FMFIA assessment processes and
(2) interviewed Foundation staff members.




                                                4
      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       If you have any questions about this report, please contact me at 202-208-5745 .




                                         ~-'           __..,,_,

                                             Mary L. Ke dall
                                             Deputy Inspector General


cc: Dr. Anne J. Udall, Vice Chair, Board of Trustees


(Attachment)




                                                5
                                                                            Attachment




July 22, 2014



Ms. Loralee Bennett
Team Lead
Office of the Inspector General
U.S. Department of the Interior
Audits, Inspections, and Evaluations
12345 West Alameda Parkway, Suite 300
Lakewood, CO 80228

Dear Ms. Bennett:

The Udall Foundation’s Board and senior staff have reviewed the Notice of Potential
Findings and Recommendations (NPFR) dated July 21, 2014. The Udall Foundation
proposes no changes to the factual information contained in the NPFR.

Since 2012, when the IG audited the Udall Foundation’s internal controls at the Board’s
request and found deficiencies, the Board of Trustees and staff have worked diligently
to correct these deficiencies. As noted in the report, the Udall Foundation has issued
new personnel policies; implemented improved Board Operating Procedures to improve
its internal governance, compliance with ethics laws and improve its ability to carry out
its stewardship duties; entered into an interagency agreement with the Interior Business
Center for all contracting above the micro-purchase threshold and implemented internal
control improvements recommended by an independent contractor. It is also worth
noting that an organizational assessment was completed; a new organizational structure
has been implemented; a new strategic plan written, approved and implemented; three
senior managers with extensive federal experience were hired to replace vacated
positions; the process has begun to re-write position descriptions for all staff; issues
identified in an audit by the Office of Government Ethics have been satisfactorily
resolved; staff have received ethics and internal controls training and an improved
framework for testing and documenting the Udall Foundation’s internal controls is in
process.

We are very pleased that the latest findings in the NPFR build upon the work that GAO
has completed, and confirm the progress the Udall Foundation has made in
strengthening internal controls. We are especially pleased that the report concludes
that “Internal Controls were implemented in each area reviewed and appeared
consistent with accepted control standards and applicable laws and regulations.”
                                                                              Attachment


Ms. Loralee Bennett
July 22, 2014
Page Two


The Board appreciates the efforts made by the IG to help the Udall Foundation improve
its internal controls. The Udall Foundation is committed to continuous improvement to
the reliability of its data and internal controls while meeting the legislative goals that
the Congress has mandated for the Udall Foundation programs.

Sincerely,



Eric D. Eberhard
Chair, Board of Trustees

EDE:eem
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
